<html>
<title> - THE NOMINATION OF LISA AFUA SERWAH MENSAH, OF MARYLAND, TO BE UNDER SECRETARY OF AGRICULTURE FOR RURAL DEVELOPMENT</title>
<body><pre>[Senate Hearing 113-562]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-562

                           THE NOMINATION OF
                        LISA AFUA SERWAH MENSAH,
                              OF MARYLAND,
                        TO BE UNDER SECRETARY OF
                   AGRICULTURE FOR RURAL DEVELOPMENT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 10, 2014

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
                                    ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-033 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
        


            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY


                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
SHERROD BROWN, OHIO                  PAT ROBERTS, Kansas
AMY KLOBUCHAR, MINNESOTA             SAXBY CHAMBLISS, Georgia
MICHAEL BENNET, COLORADO             JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, NEW YORK         JOHN HOEVEN, North Dakota
JOE DONNELLY, INDIANA                MIKE JOHANNS, Nebraska
HEIDI HEITKAMP, NORTH DAKOTA         CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., PENNSYLVANIA   JOHN THUNE, South Dakota
JOHN WALSH, MONTANA

             Christopher J. Adamo, Majority Staff Director

              Jonathan J. Cordone, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Thomas Allen Hawks, Minority Staff Director

       Anne C. Hazlett, Minority Chief Counsel and Senior Advisor

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Lisa Afua Serwah Mensah, of Maryland, to be Under 
  Secretary of Agriculture for Rural Development.................     1

                              ----------                              

                     Wednesday, September 10, 2014
                     
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     2

                                Panel I

Mensah, Lisa Afua Serwah, of Maryland, to be Under Secretary of 
  Agriculture for Rural Development..............................     3
                              ----------                              

                                APPENDIX

Prepared Statements:
    Thune, Hon. John.............................................    18
    Mensah, Lisa Afua Serwah.....................................    20
Document(s) Submitted for the Record:
    Public 5 day letter, Committee Questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Lisa Afua Serwah 
      Mensah..................................................... 24-40
Question and Answer:
Mensah, Lisa Afua Serwah:
    Written response to questions from Hon. Debbie Stabenow......    42
    Written response to questions from Hon. Thad Cochran.........    43
    Written response to questions from Hon. Heidi Heitkamp.......    44
    Written response to questions from Hon. John Thune...........    46


 
                             NOMINATION OF

                        LISA AFUA SERWAH MENSAH,

                              OF MARYLAND,

                        TO BE UNDERSECRETARY OF

                   AGRICULTURE FOR RURAL DEVELOPMENT

                              ----------                              


                     Wednesday, September 10, 2014

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 328A, Russell Senate Office Building, Hon. Debbie 
Stabenow, Chairwoman of the committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Leahy, Donnelly, Walsh, Cochran, Boozman, and Hoeven.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning. The Senate
    Committee on Agriculture, Nutrition and Forestry will come 
to order. Senator Cochran is on his way and will be joining us 
shortly, and so, welcome.
    We are here today to consider the nomination of Lisa Mensah 
to be the next Under Secretary of Rural Development at the 
Department of Agriculture, a really important role that we all 
care very much about, so we thank you for being here. I am glad 
to see you have family and friends with you, as well. When we 
turn to you, you certainly are welcome to introduce them. We 
are glad to have them here supporting you, as well.
    Preserving our rural way of life is near and dear to my 
heart, as I know my colleagues of the committee care very much 
about this particular part of USDA. Having grown up in Northern 
Michigan in the small community of Clare, I know it is 
important that we provide small towns across the country the 
tools they need to grow and prosper.
    The unique challenges that rural America faces when it 
comes to creating economic opportunity are real. According to a 
report issued by USDA's Economic Research Service, between 2011 
and 2013, net job growth in rural areas was near zero, while 
employment rates in metropolitan areas grew at an annual rate 
of 1.4 percent.
    One of the most significant challenges facing rural America 
is aging infrastructure. Without a safe drinking water supply, 
adequate housing, or affordable broadband Internet service, it 
is difficult for small businesses to recruit new employees and 
compete in the global economy. You have been nominated to 
ensure that the resources that this committee provided for 
infrastructure improvements in the 2014 farm bill will be 
invested effectively to help these communities take advantage 
of new opportunities for growth and development.
    I believe that the new energy economy is an exciting 
opportunity for rural America to develop new markets and create 
jobs. One area that this committee highlighted in June is that 
of bio-based manufacturing. In addition to a hearing that 
focused on the new support for bio-based manufacturing included 
in the farm bill, we hosted an event that featured innovative 
products developed by more than 30 companies around the country 
with homegrown materials. Implementing some of the new farm 
bill initiatives in support of this growing industry will be 
part of your responsibilities, if you are confirmed.
    The new energy economy is so exciting, in part, because it 
offers long-term economic development opportunities for rural 
America. The new farm bill provides incentives for leaders in 
these small towns to think strategically about long-term 
economic development for their communities. If these leaders 
collaborate on regional economic development strategies based 
on the unique characteristics and strengths of their 
communities, we will see the creation of job opportunities that 
will more likely stay at home in those communities. Helping 
local leaders pursue initiatives that lead to long-term 
community and economic development is an important 
responsibility for USDA as it implements Rural Development 
programs.
    I appreciate very much having the opportunity to speak with 
you, Ms. Mensah, and learn more about your background. I look 
forward to your testimony and your answers to questions of the 
committee members today. If confirmed, I fully expect you to 
work with this committee and Congress in helping to implement 
policies that will help rural America grow and prosper.
    It is now my pleasure to turn to my friend and 
distinguished Ranking Member, Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Thank you, Madam Chairman. Thank you for 
your convening of this timely hearing for the nominee for Under 
Secretary of Rural Development at the Department of 
Agriculture.
    We welcome the nominee to the hearing and thank her for her 
cooperation with the committee and giving us information and 
requests for any statements that she might make about her views 
about the responsibilities of the office for which she has been 
nominated. We look forward to the questions and answers at this 
hearing and expecting that they will be helpful to our 
understanding of her qualifications for service in this 
important position.
    Chairwoman Stabenow. Thank you very much, Senator Cochran.
    I now have the pleasure of introducing our nominee, Ms. 
Lisa Mensah, who has served as Executive Director of the 
Initiative on Financial Security at the Aspen Institute since 
2002. Prior to joining the Aspen Institute, Ms. Mensah held a 
variety of positions at the Ford Foundation, including Deputy 
Director of the Economic Development Unit and Deputy Director 
of the Rural Poverty and Resources Program. She has also worked 
at Citibank for a time after receiving her Bachelor's degree 
from Harvard University and a Master's degree from Johns 
Hopkins University.
    We are very pleased to have you with us today. We welcome 
your testimony. As you know, we ask for five minutes of verbal 
testimony. We welcome any written additional information you 
would like to leave with the committee, but we look forward to 
your testimony, so please proceed.

TESTIMONY OF LISA AFUA SERWAH MENSAH, OF MARYLAND, NOMINATED TO 
    BE UNDER SECRETARY OF AGRICULTURE FOR RURAL DEVELOPMENT

    Ms. Mensah. Thank you, Madam Chairwoman and Ranking Member 
Cochran. Thank you for this opportunity to appear before you 
today as President Obama's nominee for Under Secretary of Rural 
Development. If confirmed, I look forward to helping the 
President and Secretary Vilsack build on the accomplishments of 
this administration by working to strengthen rural areas and 
create sustainable growth for future generations.
    I am joined today by my husband, Barry Ford, and my two 
children, Rebecca and Andrew.
    Chairwoman Stabenow. We welcome them to stand up so that we 
could----
    Ms. Mensah. This is my husband, and also my father and 
brother.
    [Applause.]
    Ms. Mensah. My father, Kwaku Mensah, and brother, David.
    Chairwoman Stabenow. Your father, your brother, your 
husband----
    Ms. Mensah. My two children.
    Chairwoman Stabenow. --your son, your daughter. You have 
the full----
    Ms. Mensah. I brought everybody.
    [Laughter.]
    Chairwoman Stabenow. --family with you. That is wonderful.
    Ms. Mensah. Thank you. I also have several lifelong friends 
and colleagues, and they truly bear witness to the significance 
of this moment in my life. My journey to this room is proof 
that the American dream of opportunity is alive and well.
    I am the daughter of an immigrant from Ghana and of a farm 
girl from Iowa and Oregon who raised their three children with 
a simple guiding principle, that our earthly work was to leave 
the world a better place. They also believed in very hard work, 
and for the Mensah children, this meant summers picking 
strawberries to earn money. From the day school let out, we 
were up at 5:00 a.m. to meet the bus to take us to the fields. 
Being a strawberry picker means freezing mornings, hot 
afternoons, dirty clothes, and berry-stained hands. My parents 
assured us that picking would not kill us and that we would 
understand the value of a dollar, and in this, they were right.
    It took years for me to enjoy eating strawberries again----
    [Laughter.]
    Ms. Mensah. --but this early experience ingrained in me a 
sense that hard work is rewarded, that goals can be reached, 
and that if I could handle Oregon strawberry fields, I could 
handle just about anything.
    I would like to give you a little more insight into my 
background and how it does prepare me to serve as Under 
Secretary for Rural Development. I went on from the strawberry 
fields to earn degrees at Harvard and Johns Hopkins, and then a 
professional life at Citibank, at the Ford Foundation, at the 
Aspen Institute. In all of this, I have focused on how credit, 
investments, savings, and ownership can transform opportunity, 
especially for America's rural poor.
    At Citibank, I learned the craft of credit, how to analyze 
the strength of a commercial venture. I took these skills to 
the Ford Foundation, where I was responsible for the country's 
largest philanthropic grant and loan portfolio of investments 
in rural America.
    I have pored over the financial statements of lenders 
trying to make a difference. I have sat at the workplaces of 
small businesses struggling to find new markets and create 
jobs. I have seen the struggle to bring development to areas 
that traditional markets neglect. I saw then what remains true 
today, that there is a vital role for capital, for 
partnerships, and for infrastructure investments that do not 
replace private capital, but can spark private capital markets.
    I truly share Secretary Vilsack's priority of building new 
partnerships to leverage the strengths of rural areas, to build 
new markets, to increase regional competitiveness, and to 
create more prosperous and sustainable communities.
    Today, we know that rural areas suffer from stalled job 
growth, from declining populations, and the highest poverty 
rates we have seen in 30 years. These challenges make growth 
and prosperity more difficult, but they also require that we do 
just that.
    As I see when I visit my father's country of Ghana, when 
countries cannot make rural infrastructure work, they not only 
impede the growth of rural people and places, they hold back 
the whole nation. I am convinced that the potential exists for 
rural America's economy to continue to grow and compete 
globally and I am so eager to lead a mission area whose job it 
is to help rural communities find a path to prosperity.
    Taken together, the three Rural Development agencies--that 
is Rural Development Business and Cooperative Services, the 
Rural Housing Service, and the Rural Utilities Service--they 
have a loan portfolio of over $200 billion in direct loans and 
guarantees. It is a powerful portfolio that must be managed 
well, both to ensure repayment and to ensure that we look for 
wise and efficient investments.
    If confirmed, I look forward to returning to this committee 
to discuss how the USDA is using the program authority you 
provide to do even more. If confirmed, I will be honored to 
work alongside the nearly 5,000 employees who serve in this 
mission area.
    As I conclude, I am reminded of my first trip to 
Washington, DC. In 1979, I came here as one of two student 
leaders from Oregon sponsored by the William Randolph Hearst 
Program. I met with Senators then Hatfield and Packwood, and I 
was deeply moved by their belief that I should prepare myself 
to take the torch of leadership. Most of the time, that has 
been a private torch, but I am so honored to be sitting here 
today, prepared to assume the responsibility of public service.
    I am humbled to be before your committee. You have such a 
history of bipartisanship. Throughout my history, I have made a 
practice of listening to all and searching for solutions. At 
Aspen, I have built one of the country's most bipartisan 
tables, and if confirmed, I will keep my door open, I will stay 
responsive to you who hold the privilege of representing the 
citizens of your States.
    I hope I have provided you with some insight on how I might 
contribute to building a prosperous rural America. I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Mensah can be found on page 
20 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    Before proceeding with questions, we have one other 
official thing we need to do. We need to ask you to rise and 
ask you a question. Do you agree to appear before any duly 
constituted committee of the United States Congress, if asked?
    Ms. Mensah. Yes.
    Chairwoman Stabenow. Yes. Thank you very much.
    Well, given your impressive background, Ms. Mensah, in 
dealing with economic development and rural poverty and so on, 
what do you see as the greatest economic challenges facing 
rural communities, and as Under Secretary, what would you do to 
address the challenges that you see are there?
    Ms. Mensah. Thank you, Senator. For me, the challenge of 
rural America is to ignite the power of rural America, and what 
I am so excited about are the three sets of tools that this 
mission area has. Yes, we have challenges, but to be able to 
invest in housing and in job-growing businesses and also in 
critical infrastructure, to me, speaks directly to the 
challenges of growth and prosperity for all areas. That is what 
I am very excited about in this portfolio.
    Chairwoman Stabenow. When you look broadly at job 
creation--I mentioned the energy title, which crosses a number 
of different areas in USDA, but certainly in terms of jobs, we 
put a lot of emphasis in the farm bill on creating 
opportunities for loans and loan guarantees and opportunities 
to really expand upon the bio economy through the energy title 
and so on. I am wondering, from your perspective, how would 
you, as someone who is coming from a grant-making organization, 
address getting the dollars out for these kinds of projects, 
investing them both quickly--we obviously want to stimulate the 
economy as quickly as possible, but, of course, we want to be 
careful stewards of the taxpayers' dollars, as well--I wonder 
if you have looked at some of the opportunities not only in 
biofuels, but in bio-based manufacturing, the ability to use 
agricultural materials and products to be able to create new 
opportunities and jobs.
    Ms. Mensah. Senator, thank you for your interest in that 
area and for the authority that has already been established in 
this farm bill. I am very excited about the opportunities in 
the bio economy, and it feels to me like a new chapter in Rural 
Development. When I was at the Ford Foundation, I did not just 
do grants. I did loans. Some of those were in your State, in 
the Upper Peninsula of Michigan. I remember what was so 
critical to getting loans out was very smart partners. We had 
institutions like Northern Initiatives that were creative loan 
funds who could go into small towns, find partners. That is 
what I think speed takes. It takes people who are already on 
the ground, prepared to use the funds that are precious and 
wise stewards of those funds. I very much look forward to this 
new chapter in rural America.
    Chairwoman Stabenow. Well, thank you. I agree with you. 
Northern Initiatives is wonderful in the Upper Peninsula of 
Michigan and it really is about partners, I think. When you 
look at leveraging resources, again, from your perspective, 
coming from the private and nonprofit sector, and considering 
your background with Ford and so on, I think you really bring a 
fresh perspective to this. What new opportunities do you see 
for the USDA to help communities maximize the impact of 
resources and leverage those kinds of partnerships?
    Ms. Mensah. Well, I am very excited to be joining the 
Department at this moment. Partnerships has been a word that I 
know has been a big priority of Secretary Vilsack. What I 
really feel is that we are poised to take off. This farm bill 
was passed. There is time now to really create serious 
partnerships, and I feel like I am walking into a set of 
skilled and talented staff who really understand those 
portfolios and I will be able to help them find the other 
partners on the private side who can help take this work even 
further.
    Chairwoman Stabenow. What do you think we could do to 
leverage more private foundation dollars? I mean, obviously, we 
are looking at that throughout our efforts in agriculture. We 
have a new public-private research foundation where we are 
putting in public dollars, but also activating the foundation 
with private dollars, as well. In other areas, I mean, how do 
you see us, again, from your perspective, playing an 
intermediary role between private foundations and rural 
communities? What do you think you could do?
    Ms. Mensah. Well, I appreciate the question very much. I 
think they need to know we are here. I think--I also think 
there are a lot of foundations that focus on core larger 
challenges--youth, the challenges of education, the challenges 
of growth. They might not always have a rural lens, but they 
will need to know we are here. I am excited about calling folks 
up, bringing them in. I do not plan to stop talking to my 
friends in that sector. I think they are going to be very 
excited. The key for a foundation is leverage. A foundation 
will never be as big as the U.S. Government. Their success is 
dependent, also, on a partnership with this work.
    Chairwoman Stabenow. I appreciate that very much. I think 
it is really true. When we look at--there is very important 
work being done in urban areas. At the same time, though, when 
we look at poverty and the needs of people, there is not always 
a focus or understanding of rural communities. I think bringing 
that voice and focus could help our communities all across the 
country. Thank you very much.
    Senator Cochran.
    Senator Cochran. Madam Chair, thank you.
    Madam Secretary--I am moved to call you Madam Secretary----
    [Laughter.]
    Senator Cochran. Let me, again, congratulate you on your 
nomination and wonder whether or not you can identify now, 
after reviewing the jurisdictional responsibilities of the 
office you have been nominated to fill, what are the highest 
priorities of this administration in terms of stimulating 
development and stimulating the availability of education, 
health care, services that really would do a lot to help 
improve the prospects for individual residents, citizens, 
businesses in rural America to prosper and succeed.
    Ms. Mensah. Yeah. Thank you, Senator Cochran, for your--for 
raising that issue. I think, I have learned so much in your 
State with key partners, like HOPE Enterprise, and I think you 
have raised the key issues of education and health and true 
community facilities.
    What is exciting to me about the priorities of this 
administration is the ability to work across lines. Yes, jobs 
are important. So are the infrastructure pieces of those jobs, 
and so are the housing pieces of those jobs. What I am excited 
about is a strategy that is not just one silver bullet, but 
several things together, and that, to me, is a very exciting 
piece and I look forward to working on this.
    Senator Cochran. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    I now turn to our distinguished-most Senator Leahy. I was 
thinking this morning, as I am sitting here between two former 
Chairmen who have these wonderful portraits on the wall, so we 
not only get to see them in person, we get to see them on the 
wall, and I am surrounded by former Chairmen.
    [Laughter.]
    Senator Leahy. I could not help but notice----
    Chairwoman Stabenow. Senator Leahy.
    Senator Leahy. --Madam Chair, that all but one of them have 
a head of hair.
    [Laughter.]
    Senator Leahy. But----
    Chairwoman Stabenow. Senator Leahy.
    Senator Leahy. But, there are Senator Harkin, Senator 
Chambliss, and, of course, Senator Cochran and I still serve 
here, and I think the reason we do is because this committee 
means a lot to us and as much as it does. I compliment you and 
everybody else, again, on the farm bill, Madam Chair.
    Back here a couple of weeks ago, Secretary Vilsack was in 
Vermont, and Ms. Mensah, I told him of our meeting that we had 
just before the recess and how much that meant to me, and 
coming from probably the most rural State, or certainly one of 
the most rural States in the country. Our largest city is 
38,000 people. What you and I discussed about REAP Zones and 
those things, very, very important to us----
    Ms. Mensah. Yeah.
    Senator Leahy. Last week, in a speech about the state of 
broadband competition, the SEC Chairman, Tom Wheeler, noted 
that Americans living in urban areas are more than three times 
more likely to have access to next-generation broadband 
networks than those living in rural areas. I included in the 
farm bill a program to deploy ultra-high-speed networks in 
rural areas.
    I remember my grandparents telling me about how excited 
they were when telephones came to rural America. Something like 
that, we take for granted. We have to ensure that we have this 
broadband high-speed Internet, because otherwise, you are not 
going to bring the jobs into rural America that we want to, to 
say nothing about just the consumer interest in having this.
    My question is this. How will the Rural Gigabit Pilot 
Program advance USDA's efforts to close the broadband divide 
between urban and rural America?
    Ms. Mensah. Thank you, Senator Leahy, and for your 
commitment, your work on these issues. I am very excited about 
the authorities in this portfolio around rural broadband. Rural 
broadband is crucial to the kind of jobs, the growth, the 
ability for people to live and work in rural areas. It is the 
future. I am excited about being able to work on this, and if 
confirmed, I look forward to coming back and talking with you 
about how we can work even faster.
    Senator Leahy. Will you work for funding for that in the 
Department's budget?
    Ms. Mensah. Absolutely.
    Senator Leahy. Thank you. A lot of agencies have faced 
extremely difficult budget restraints, and there have been a 
lot of cuts on many important programs. I worry that in USDA, 
the cuts have disproportionately impacted Rural Development--a 
billion dollars in proposed cuts of loans and grants for 
business development, for example, water and waste disposal, 
rural housing, since 2010. They have been cut about 35 percent. 
I hope that you will work for funds for Rural Development. I am 
a member of the Appropriations Committee. I am eager to work 
with you. But, I think of the lack of funding. We cannot rehab 
affordable housing. We cannot make home ownership a reality in 
rural America with all that means.
    I should probably ask you this. What do you envision as a 
housing strategy for rural America?
    Ms. Mensah. Thank you, Senator Leahy, and I am very excited 
that this portfolio has a strong emphasis on housing. I believe 
that the housing needs need--what I know is that housing is 
critical at all levels, for single family, for multi-family, 
all different income levels. I worked at Aspen on the 
centrality of home. It is also people's most important asset. 
We will not be able to close a wealth gap if we cannot invest 
in housing. You will have in me someone who will always 
champion the interest of this, and in keeping the distinction. 
Rural has challenges and special needs, and I am so happy that 
this position has a focus on rural housing.
    Senator Leahy. Well, thank you. I think that not only is it 
your most important asset for most people, but it also sets a 
sense of community if people have their own homes.
    I have other questions which I will submit for the record 
and I would appreciate your answering. But, I also appreciate 
very much the meeting we had prior, and I suspect we are going 
to have some more. Thank you.
    Ms. Mensah. I look forward to that. Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Boozman, welcome. Good morning.
    Senator Boozman. Thank you, Madam Chair, as always.
    Congratulations. This is certainly a great honor to be 
nominated. You have had a distinguished career, and it is a 
good sign when Senator Cochran calls you Madam Secretary.
    [Laughter.]
    Senator Boozman. I would like to ask you about an issue 
that we have had that affects Arkansas. In early August, we 
learned that in Arkansas, USDA--the State director determined 
that several rural communities in the State would no longer be 
eligible for USDA rural housing programs because their 
communities were not rural in character. This was very 
concerning to our Arkansas community, since they were notified 
less than two months before the reclassification was scheduled 
to take effect.
    While I was pleased to hear from USDA that they will hold 
off on implementing any changes for eligibility based on rural 
in character criteria until September 30, 2015, I would like to 
ensure that there is ample time for public comment, also 
commitment to seeing if we can get this worked out, and 
consideration before final designations are issued. Can you 
address that and comment regarding that, and perhaps get a 
commitment from you that you will look into that and see if you 
can be of help.
    Ms. Mensah. Thank you, Senator Boozman, for your question 
and for your obvious concern for the issues of housing. I have 
also traveled in your State with Enterprise HOPE and I have 
seen the different needs throughout the State. You will have in 
me, if confirmed, someone who is very committed to these issues 
of housing. Absolutely, I look forward to learning more about 
the specifics of the issue that you raise and to working with 
you for any of those concerns.
    Senator Boozman. When I am back in Arkansas, the number one 
thing on the minds of Arkansans is jobs, jobs, jobs. If you do 
not have a job, if you cannot support your family, all of these 
other things are really pretty insignificant. Often, our rural 
communities fall victim to higher levels of unemployment due to 
a lack of resources and community development. As Under 
Secretary of Agriculture for Rural Development, what steps 
would you take to ensure that our rural communities are 
receiving the necessary resources to grow their local economies 
and reduce unemployment?
    Ms. Mensah. Thank you. This is an area of my deep 
professional love and passion, which is how do all communities 
prosper? How do people prosper? How do we bring jobs to places 
that markets do not go? I am excited about this portfolio. I am 
excited about the tools of rural business development. I look 
forward to making sure that every community has an ability to 
compete for these funds and to working with you, if confirmed.
    Senator Boozman. I think in rural America, there is real 
concern about the perception and the actuality of overreaching 
regulation and just overreach in general. Could you speak to 
that, and then also share your issues that, if confirmed, I 
would really like to know what your number one priority would 
be as far as what do you want to get done? Where do you want 
to, however many years from now, step back and say, this is 
what my priority was and this is what we accomplished?
    Ms. Mensah. Both are deep questions. On regulation, I will 
commit to you that we will run a loan portfolio that is 
dedicated to being both efficient and making wise investments. 
On priorities, I said one thing, which it would be my job, 
first, to listen very, very hard to the people who wake up 
every morning and do their job at the Rural Development 
mission. I am obviously coming from the outside. I want to hear 
first. But, I think the critical moment, having already passed 
a farm bill, I think the critical priority for us is on 
implementing some of the powerful authorities that exist. What 
I want to see is some flourishing of the jobs and 
infrastructure and housing opportunities.
    Senator Boozman. Very good. Well, we hope to have you back 
in Arkansas.
    Ms. Mensah. Thank you, Senator.
    Senator Boozman. Thank you, Madam Chair.
    Chairwoman Stabenow. Absolutely. Thank you very much.
    Senator Donnelly from the great State of Indiana.
    Senator Donnelly. Thank you, Madam Chair, and 
congratulations. We are very honored to have you here.
    I wanted to ask you about just a specific Indiana question 
first, and that is that we have a town in one of our counties, 
Morgan County--the town is Waverly--and they are looking to 
take advantage of the REDLG Program, the Rural Economic 
Development Loan and Grant Program. While their community is 
currently eligible to take advantage of many Rural Development 
programs, USDA has not yet completed the rulemaking to allow 
Waverly to be part of this program. I was hoping that you could 
commit to finish the rulemaking in a timely manner for our 
town.
    Ms. Mensah. Thank you, Senator. What I can say is that the 
business loan programs, I will be--that is an area of deep 
passion and experience for me----
    Senator Donnelly. Okay.
    Ms. Mensah. --and I have sat with those programs, know the 
regs, and I look forward--I will commit to you to coming back 
to you and working with you to resolve these issues.
    Senator Donnelly. We will look forward to having that 
conversation.
    One of the things we have done in our State is we have a--
my predecessor, whose picture is also on the wall, Senator 
Lugar----
    [Laughter.]
    Senator Donnelly. There is a program at Indiana State 
University in Terra Haute named the Lugar Rural Health 
Initiative and we have a number of counties in our State now 
that do not have OB/GYN services. I think it has become an 
increasing challenge for a lot of our rural communities in the 
health area, and we are trying to develop more of a pipeline 
for primary doctors through that program and others. I was 
wondering what initiatives you are looking at to make sure that 
the kind of health services we hope for in all parts of our 
country can be extended to the rural areas.
    Ms. Mensah. Thank you, Senator, and for raising a very 
critical issue of rural health and of primary physicians. What 
I know is that this is a portfolio that actually has an ability 
to invest both in the facilities and in the job creating 
pieces, and I think both are related to rural health. What I 
look forward to is--continuing to hear these priorities, I am 
deeply aware of them. I know you cannot have an OB/GYN by 
telemedicine. I appreciate your lifting this concern and I look 
forward to working with you on this.
    Senator Donnelly. A lot of the young potential doctors come 
from some of these rural communities. They would like to go 
home if they can, and we have to make sure we have the 
opportunity for them to do that. That brings me to my next 
point, which is that for a lot of our rural communities, our 
young people--and this has happened for a long time--our young 
people, when they graduate and they go through college and they 
look, they want to come home, but there is no opportunity for 
them to come home to, and that goes directly into your title of 
Rural Development.
    Ms. Mensah. Yeah.
    Senator Donnelly. Having the broadband there and having job 
opportunities there, having the knowledge that if I raise my 
family here, we will have good health care here. One of my 
passions is that we want everybody to have the freedom of 
choice to go wherever they want to go. That is the American 
dream. But, at the same time, if you want to go home to your 
rural community, that you have the chance to do that, that 
there is opportunity there as opposed to saying, well, I went 
to the city simply because there was nothing I could do back 
home.
    Ms. Mensah. Right.
    Senator Donnelly. I think that is really a cornerstone of 
your mission, is how do we make it so that our children can go 
home if they want to, that the choice is not just to go to the 
city, but to be able to run that business right there or go to 
a good job right in that community, and I was wondering how you 
see that as part of your mission.
    Ms. Mensah. Senator, that was beautifully stated. I share 
your passion. As a mother of two teenagers, I think every day 
about the future.
    Senator Donnelly. Good luck with that, too, by the way.
    [Laughter.]
    Ms. Mensah. I appreciate it. I appreciate it.
    Senator Donnelly. I have been there, done that.
    [Laughter.]
    Ms. Mensah. You know, if we cannot get this right, this is 
what I meant when I spoke passionately about not giving up on 
rural areas, and I do believe the tools of broadband and the 
tools of new growth and seeing that there is something new. The 
bio-economy kinds of investments, to me, are a really new page 
in Rural Development and that is exciting to be part of. I 
share the same dream and I look forward to working on these, if 
confirmed.
    Senator Donnelly. Well, thank you. We look forward to 
working with you.
    Ms. Mensah. Thank you.
    Chairwoman Stabenow. Great. Thanks very much.
    Senator Walsh from the great State of Montana.
    Senator Walsh. Thank you, Madam Chair.
    Ms. Mensah, congratulations on your nomination and thank 
you for being here.
    You know, Montana is one of the most rural States in the 
country. Just a quarter of our population lives in urban areas 
and 30 percent live in small cities, along with another 44 
percent live in rural areas. Living in a rural area in Montana 
puts you much further from urban centers than would be the case 
in States outside of the West. Our large, open spaces are 
renowned around the world. Big Sky Country is breathtaking. I 
know we talked and you said you have been to Eastern Montana 
and Billings, so I know you have some understanding of that.
    Montana's rural nature is part of our culture and we 
cherish it and we want to keep it that way, but it also 
presents unique challenges, including economic development, 
infrastructure, and transportation. USDA's Rural Development 
mission area has a variety of tools designed to spur economic 
development in places like Montana, rural States. I have heard 
time and time again how well these programs are working.
    For example, a variety of Rural Development programs have 
invested in Eastern Montana, where many small towns are booming 
due to oil exploration in the Bakken field. In 2013, over 1,500 
Montana families purchased homes with Rural Development loans. 
Critical water, sewer, and electric infrastructure projects 
were funded as well, helping small towns grow and attract new 
residents.
    But housing infrastructure is only part of the puzzle. For 
these small towns to grow, we need to create economic 
opportunity. We need more jobs on the ground, and the business 
programs at Rural Development will help fill that need.
    Just this month, USDA announced a $1.3 million long-term 
loan along with local funds that will be used to transform a 
run-down park in my hometown of Butte, Montana, into a 
neighborhood center. This center will provide important local 
services, such as job training and housing assistance. Last 
month, Montana's State Director Tony Preite, announced three 
new grants under the Rural Business Enterprise Grants program 
to provide funding for businesses in the Bitterroot Valley.
    I could list many more instances where Rural Development 
programs have helped support jobs in Montana, but the point is 
that these programs are critical to support jobs and economic 
development in rural areas.
    Directly related to the state of the economy is the issue 
of poverty. Over 15 percent of Montanans live in poverty, and 
that number is even higher for children. We must do more to 
tackle this issue across the country and I look forward to 
hearing from you how we can better address poverty in rural 
areas.
    I just have a couple of questions I would like to ask. 
First, you have many years of experience working on both rural 
issues and poverty at the Ford Foundation and the Aspen 
Institute. How will that experience translate at the USDA?
    Ms. Mensah. Thank you, Senator, both for your comments of 
hope about this division. I think my experience on poverty and 
on investing speaks to the two issues you raised, that we must 
have growth to lift all the boats, but even when we get growth, 
as we have seen in your State, our work is not done. The three 
tools--the business portfolio, the housing portfolio, and the 
infrastructure portfolio--to me, these are the key portfolios 
and key tools of partnership. If confirmed, I very much look 
forward to continuing this work.
    Senator Walsh. Okay. Second, I referenced the booming 
economy in Eastern Montana. While the economic activity is 
welcome, it also brings a major strain on municipal 
governments. USDA-RD programs are an opportunity to fill that 
gap. As Under Secretary, what would be your view of Rural 
Development's mission and how will you utilize these programs 
to meet the needs of communities such as those in Eastern 
Montana?
    Ms. Mensah. Thank you, Senator. Also, just to--for me, the 
power of a growing economy is seeing how you keep all things 
moving, and this portfolio's tools to be able to help areas 
like yours with critical needs, even in growth, so that it can 
really have its impact, is a powerful part of this portfolio. I 
look forward very much to working with you and in your State, 
if confirmed.
    Senator Walsh. Okay. One final question. You know, again, 
rural areas in Montana lag behind in broadband development. 
USDA already has programs to support broadband. What is your 
vision for these programs, and will you target them to areas 
that are truly underserved, such as Reservations in Montana and 
the Eastern part of the State?
    Ms. Mensah. Thank you, Senator, and thank you for raising 
the needs of Native American Reservations, too. We have spoken 
about how important I view broadband and this new area. I think 
this is a critical part of jobs, growth, and the future. I look 
forward to help this mission reach all areas with these 
services.
    Senator Walsh. Okay. Thank you.
    Ms. Mensah. Thank you.
    Senator Walsh. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Hoeven, great State of North Dakota.
    Senator Hoeven. Thank you, Madam Chairman and Ranking 
Member, and thanks for holding this hearing today.
    Ms. Mensah, I want to start by thanking you for coming by 
and visiting with me prior to this hearing today. I appreciate 
it and certainly look forward to working with you.
    In our State, we have tremendous growth going on right now. 
I think we are the fastest growing State in the country, and we 
have a lot of growth in energy, certainly oil and gas in the 
Western part of the State, renewables, wind, biofuels, that 
kind of thing in the Central and Eastern part, but then, also, 
in some of the other areas too, Ag processing and some of the 
life sciences, technology in the Red River Valley, aerospace. 
Our challenge is our growth, and one of the biggest challenges 
that comes with that is housing.
    We need housing, and we particularly need housing in the 
energy patch in the West. In the rural areas, that is a huge 
challenge. I mean, it is a challenge all over the State, and it 
is a challenge both because of the down payment--young people 
come and they can make a great wage now. Driving a track, I 
think they are over $100,000. But, they do not have a down 
payment to qualify for a loan. Then he other thing is, the 
housing is so expensive, particularly in the rural areas and 
the smaller communities.
    You have got a financial background.
    Ms. Mensah. Yeah.
    Senator Hoeven. You have got some great financing programs. 
Tell me how you are going to come to North Dakota and really 
help us get these young people into homes. We are building a 
lot of apartments, but the apartment rent is pretty high, and 
what we really need is single family homes. How can you help 
us?
    Ms. Mensah. Yeah. Thank you, Senator, and thank you for 
reminding us that even in growth, we have got challenges.
    Senator Hoeven. Right on.
    Ms. Mensah. My experience, particularly at Aspen, was 
working with financial sector leaders--some are in this room 
right now--to really work on the American challenge of savings. 
I think that in these years of growth, the key, again, is 
partnerships with our financial institutions so that people can 
start to save to be prepared for these down payments, knowing 
that when they do their part, the other end of the--the other 
hand is there. This portfolio has a wonderful ability to invest 
in housing. I am excited about that. I am excited in the single 
family and multi-family opportunities. If confirmed, I look 
very much forward to working with you.
    Senator Hoeven. Would you be willing to come out to North 
Dakota and help convene lenders, both in terms of trying to 
find that down stroke help, people find that down stroke, but 
then also utilizing your loan guarantee programs, which are 
very good, with our lenders to see if we cannot get more of 
this housing need met?
    Ms. Mensah. Senator, if confirmed, I am going to be talking 
a lot to lenders, and I think they need the USDA to say, we are 
here to be partners. I very much look forward to working with 
private sector leaders to identify and champion the causes of 
rural America.
    Senator Hoeven. You would be happy to come to our State and 
work----
    Ms. Mensah. I would be very happy to come to your State.
    Senator Hoeven. Good, because, I think, sometimes sitting 
down with them and making sure that they can access these 
programs easily, efficiently, and well makes a big difference 
in terms of getting them used, and I think your background 
really lends to that kind of collaborative effort.
    Ms. Mensah. Thank you. I believe in collaboration.
    Senator Hoeven. Also, and the infrastructure piece, too. 
You know, all of the infrastructure needs that go with it, 
everything, as Senator Walsh said, from fiber and 
communications working through RUS to all the roads, bridges, 
schools, everything in that respect, as well. But, again, we 
are going to need your leadership and this partnering effort. 
Maybe touch just for a minute on some of the infrastructure 
programs and your approach there.
    Ms. Mensah. My--thank you, Senator, and you really raise 
the thing I am excited about this portfolio, which is the 
ability to invest both in infrastructure and housing and in the 
job creating. For me, the infrastructure is such a key 
component, and I am actually very excited to be part of a 
portfolio which understands all the needs and has tools, that 
we do not just have to come with one tool. Thank you for 
raising that, and if confirmed, I look forward to working on 
that.
    Senator Hoeven. You have programs in water, in wastewater, 
telecommunications, housing, as we have mentioned, all of 
these, and we are going to give you an opportunity to deploy 
them. Your commitment to work with us is much appreciated and 
we look forward to it.
    Ms. Mensah. I do, too, look forward. Thank you.
    Senator Hoeven. Thank you.
    Ms. Mensah. Thank you for your questions and your interest.
    Chairwoman Stabenow. Well, thank you very much, and I think 
it is clear that there is both respect and support for your 
nomination, and we look forward to officially having the 
opportunity to move your nomination from committee to floor, 
and, hopefully, move that as quickly as possible.
    I think it is also clear you should expect to be traveling 
a lot----
    [Laughter.]
    Chairwoman Stabenow. --airline tickets. We are going to 
give you a tour of the country, looking at rural communities in 
all of our States. I agree with Senator Hoeven that nothing 
takes the place of being there and talking to people and seeing 
what is happening in the States across the country.
    We thank you very much. We look forward to working with 
you. This is a very, very important position, and I think you 
can tell from the interests of the members today, it impacts 
every single one of our communities and all of our States.
    Any additional questions for the record should be submitted 
to the Committee Clerk two business days from today. That is 
5:00 p.m. on Friday, September 12.
    If there is no further business, the meeting is adjourned.
    Ms. Mensah. Thank you.
    [Whereupon, at 10:52 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           SEPTEMBER 10, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T3033.001

[GRAPHIC] [TIFF OMITTED] T3033.002

[GRAPHIC] [TIFF OMITTED] T3033.003

[GRAPHIC] [TIFF OMITTED] T3033.004

[GRAPHIC] [TIFF OMITTED] T3033.005

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           SEPTEMBER 10, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                         QUESTIONS AND ANSWERS

                           SEPTEMBER 10, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 

</pre></body></html>
